APPENDIX A

Case: 19-1050

Document: 26-1

Page: 1

Date Filed: 04/27/2020

March 12, 2020
ALD-138
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 19-1050
TYRONE JOHNSTON, Appellant
v.

SUPERINTENDENT DALLAS SCI; et al.
(E.D. Pa. Civ. No. 2-15-cv-04800)
Present:

MCKEE, SHWARTZ, and PHIPPS, Circuit Judges
Submitted is Appellant’s request for a certificate of appealability under 28
U.S.C. § 2253(c)(1) in the above-captioned case.
Respectfully,
Clerk

______________________________ ORDER_______________________________
The application for a certificate of appealability is denied because Appellant has
not made a substantial showing of the denial of a constitutional right. See 28 U.S.C.
§ 2253(c); Miller-El v. Cockrell. 537 U.S. 322, 338 (2003). In particular, jurists of
reason would not debate whether Appellant can prevail on his Confrontation Clause
claim, because even assuming he could demonstrate such a constitutional violation, he
cannot demonstrate that it had a “substantial and injurious effect or influence in
determining the jury’s verdict.” Bond v. Beard. 539 F.3d 256, 275-76 (3d Cir. 2008)
(quoting Brecht v. Abrahamson, 507 U.S. 619, 637 (1993)). In addition, jurists of reason
would not debate whether Appellant can prevail on his claim that trial counsel rendered
ineffective assistance by failing to file a motion under Pennsylvania Rule of Criminal
Procedure 600, see Bradshaw v. Richey, 546 U.S. 74, 76 (2005) (per curiam) ((“[A] state
court’s interpretation of state law ... binds a federal court sitting in habeas corpus”), or
by failing to assert his Sixth Amendment right to a speedy trial, see Strickland v.
Washington, 466 U.S. 668 (1984); Barker v. Wingo, 407 U.S. 514, 530-31 (1972).
By the Court,
s/Patty Shwartz
Circuit Judge
Dated: April 27, 2020
CLW/cc: Mr. Tyrone Johnston
Max C. Kaufman, Esq.

A True Copy:

.un5

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

APPENDIX 8

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 1 of 48

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA

TYRONE JOHNSTON,

CIVIL ACTION
NO. 15-04800

Petitioner,
v.
LAWRENCE MAHALLY,1
DISTRICT ATTORNEY OF COUNTY OF
PHILADELPHIA, and
ATTORNEY GENERAL OF THE STATE
OF PENNSYLVANIA
Respondents...

MEMORANDUM
EDUARDO C. ROBRENO, J.

December 21, 2018

In a consolidated bench trial, Petitioner Tyrone
Johnston ("Petitioner") was convicted of the first-degree
murders of Jamel Conner and Stephanie Labance.2

Petitioner was

sentenced to life imprisonment for each murder conviction.

In

relation to his conviction for the murder of Ms. Labance,
Petitioner filed a pro se petition (the "Petition") for a writ

i

See Rules Governing Section 2254 Cases in the United
States District Courts, Rule 2.
2_
In connection with the two murders, Petitioner was
also
convicted
of one count of criminal conspiracy and two
coiith-c
counts of possessing instruments of crime.

Case 2:15-CV-04800-ER Document 41 Filed 12/21/18 Page 2 of 48

of habeas corpus under 28 D.S.C. § 2254 seeking relief on
multiple grounds.
The case was referred to Magistrate Judge Lynne
Sitarski for a report and recommendation ("R&R").

Magistrate

Judge Sitarski recommended that the Petition be denied on all
nine grounds raised.

Petitioner conceded the R&R on all but two

grounds, objecting to the recommendations to deny relief for his
claims that he suffered from:

1) a violation of the Sixth

Amendment's Confrontation Clause in relation to the admission of
-a-u-t-ops-y—repo-r-t-s—and—bes-t-imony—of—a~mre'di'Carl'“examlher''who”'ciTd~hbt

conduct the autopsies (Ground Two); and 2) ineffective
assistance of counsel in relation to trial counsel's failure to
seek relief for lack of a speedy trial (Ground Four).
For the reasons set forth below, the Court approves
the R&R as to Grounds One, Three, Five, Six, Seven, Eight, and
Nine denies the Petition on those grounds.

Following de novo

review of Grounds Two and Four, the Court denies the Petition on
those grounds.

Finding no merit to any of the grounds raised,

the Court denies issuing a writ of habeas corpus and denies
issuing a certificate of appealability.

2

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 3 of 48

Table of Contents
I.

BACKGROUND

A.

4

Procedural History ...............................................................

B.

Ground Two — Violation of the Confrontation Clause
C.
Ground Four — Ineffective Assistance of Counsel for
Failure to Raise a Speedy Trial Claim .........................................
II. LEGAL STANDARD FOR HABEAS RELIEF .............................................
A.

Procedural Requirements ........................................................

B.
Referral to a Magistrate Judge for Report and
Recommendation ..........................................................
C.

4
6
9
15
15
19

Merits of Habeas Petition ..................................................

20

GROUND TWO

CONFRONTATION CLAUSE

23

A.

Clearly established Federal law ..

24

B,

Determination of -the--facts-

C.

Conclusion ...........................

III.

' 2'9 " '

30
IV. GROUND FOUR — INEFFECTIVE ASSISTANCE FOR FAILING TO RAISE A
RULE 600 CLAIM..
31
V.
GROUND FOUR — INEFFECTIVE ASSISTANCE FOR FAILING TO RAISE A
SIXTH AMENDMENT CLAIM
33
A.
The R&R and Petitioner's Objections
33
B.
Petitioner's claim is unexhausted and procedurally
defaulted
34
C.
The merits of the Sixth Amendment-based claim
38
VI. GROUNDS ONE, THREE, AND FIVE TO NINE......... ..
47
VII.
CERTIFICATE OF APPEALABILITY
47
VIII.
CONCLUSION ................
48

3

tr

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 4 of 48

I.

BACKGROUND
A.

Procedural History
This case proceeded through the state courts in a

complicated manner that is not relevant to the Petition.3
Accordingly, a recitation of only the pertinent aspects of the
case will suffice at this juncture.4
Petitioner was tried in the Philadelphia Court of
Common Pleas ( Trial Court”) and convicted of the first-degree
murders of Stephanie Labance (Indictment No. CP-51-CR-1300475-

-2-0-0-6i^and—Jsmei^Conn'or^'InilicTm^t^NorrP^Sl^CR^OlDlMTST-SOOTrr
and other crimes related to the two murders.

See ECF No. 1, Ex.

A at 1 n.l (Post-Conviction Relief Act Court Opinion, April 28,
2014).
Following the protracted post-trial state court
proceedings, Petitioner filed a § 2254 petition raising eight
9rou-ncis for relief in connection with his conviction for the
first-degree murder of Stephanie Labance.
20; see also ECF No. 32 at 4-5.

See ECF No. 1 at 10-

The Commonwealth of

Pennsylvania filed a response in opposition to the Petition, ECF

3

A comprehensive review of the timeline and
complexities of the filings in this case is provided in the R&R
See ECF No. 32 at 1-6.
Respondents submitted portions of the state court
record in hard copy, See ECF No. 32 at 1 n.2. The documents
were indexed and numbered as D1 to D30. Following the
convention used in the R&R, the Court refers to the state court
record hard-copy documents as SCR No.
See id.
4

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 5 of 48

No. 23, and Petitioner filed a reply, ECF No. 28, in which he

raised an additional ground that was not in the Petition.

See

ECF No. 32 at 5-6.
The R&R addressed all nine grounds brought by the
Petitioner during the § 2254 proceedings, and all nine were
recommended for denial.

See id. at 39.

Petitioner objected on

only two grounds, and "concede[d] to the remaining [seven
grounds] as presented [in the R&R] .'"5

ECF No. 39 1 20.

The

objections relate to Ground Two (violation of the Confrontation
■Gl-a-u-s-e-)—a-nd-Ground—Four—-(±n'e‘f‘fective assistance "of' counsel for
5

The numbering of the grounds follows the numbering in
the R&R, which in turn was based on Petitioner's numbering in
the Petition. See ECF No. 32 at 4-5.
^•^e grounds not objected to and expressly conceded
are: 1) Rights violated when two independent homicide cases
were consolidated into one trial"; 3) "The verdict was not
su^rcient to support the verdicts of guilty"; 5) "The verdicts
of guilty were against the weight of the evidence
6)
Petitioner was denied his due process rights and effective
assistance of both direct and collateral review counsel, when
both Counsel Siegel and Cotter failed to seek consolidation of
Petitioner's direct appeals for both the Conner and Labance
cases. Likewise, Petitioner's PCRA issues should have been
consolidated for both the Labance and Conner cases"; 7)
Petitioner was denied the effective assistance of counsel as
guaranteed under the United State Constitution when his Counsel
failed to hire a ballistics expert and introduce expert
baliistics testimony . . . "; 8) "Petitioner was denied the
e fective assistance of counsel as guaranteed under the United
States Constitution, when his Counsel without objection allowed
6Vidence ^c^rding the murder of Paul Chaldek,
which Petitioner was not charged or on trial for"; 9) "the
fh^hS^h°U?S ^iolated petitioner's] speedy trial rights in
which the Six Amendment to the United States Constitution
protects." See ECF No. 1 at 10-20;
ECF No. 28 at 15; ECF No. 32
at 4-5; ECF No. 39 5 20.
5

Case 2:15-CV-04800-ER Document 41 Filed 12/21/18 Page 6 of 48

failure to raise a speedy trial claim).
II 41-75.

See id. If 21-40;

The following sections discuss the substance of

Petitioner's claims on these two grounds and the relevant post­
conviction filings.
B.

Ground Two
1.

Violation of the Confrontation Clause

Facts relating to the trial
the trial, Assistant Medical Examiner Dr. Gary

Collins was permitted to testify regarding the cause and manner
of death of Ms. Labance, as well as the other victim, Mr.
JConner.

-ECE—No-.—3-0—2—a-t—1-3-8-:-9—i“8~6~:~i3—-(-NtT"—Feb- T57~2W977

However, Dr. Collins neither conducted nor was present at either
of the autopsies; Dr. Ian Hood conducted Ms. Labance's autopsy,
and Dr. Gregory McDonald conducted Mr. Conner's autopsy.
142:13-143:12.

Id. at

At the time of the trial, Drs. Hood and McDonald

were no longer employed by the Philadelphia Medical
Examiner's
Office.

Id. at 143:2-15.

To prepare for his testimony, Dr.

Collins reviewed the written reports by Drs. Hood and McDonald,
as well as the autopsy photographs and toxicology reports.

Id.

at 143:16-144:4; 173:6-22.
At the beginning of Dr. Collins's testimony, the
Commonwealth conducted voir dire as to his qualifications and
experience.

Id. at 138:22-141:18.

The Commonwealth then

tendered Dr. Collins as " an expert in the field of forensic
pathology."

Id. at 141:19-21.

Defense counsel opted not to
6

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 7 of 48

conduct voir dire of Dr. Collins.

Id. at 141:22-142 : 4 .

The

court.qualified Dr. Collins as competent to testify by way of
expert opinion in the field of forensic pathology.

Id. at

142:5-7; Pa. R. Evid. 702.
After Dr. Collins had testified about who had
conducted the autopsies and written the reports in the case, he
was asked whether he was "able to draw a conclusion [himself]
regarding the cause and manner of death of Mr. Jamel Conner,
based on the information [he] received from Dr. McDonald's

^xam±nartxo'nT"~ idT at 144:12 15.

Defense counsel objected on

the basis that Dr. Collins "didn't view the body, and [was] not
competent to testify as to the autopsy results merely from
reading someone else's report."

Id. at 144:18-21.

Dr. Collins

then testified that he was able to give competent testimony and
had given testimony in similar circumstances, and for both Drs.
McDonald and Hood.

Id. at 144:24-145:20; 146:6-11.

After a few more questions, defense counsel again
objected, and a lengthy sidebar discussion ensued.
147:18-148:20; 150:5-159:14.

Id. at

Defense counsel explicitly stated

that the objection was not to Dr. Collins being allowed to refer
to the report, but to the fact that there were additional
photographs that had not been provided to the defense in
discovery.

Id. at 148:2-20.

The court and counsel discussed

Dr. Collins's ability to testify about the
cause of death based
7

Case 2:15-cv-04800-ER Documents Filed 12/21/18 Page 8 of 48

on the photographs or contents of the report; whether a defense
expert could, in theory, testify from the same materials;
whether there were issues actually in dispute concerning the
victims being shot, the wound paths caused by the bullets, and
the gunshots as a cause of death; and whether the autopsy
reports were business records.
159:14.

Id. at 147:18-148:20; 150:5-

Defense counsel indicated that the cause of death from

multiple gunshot wounds was not disputed.
155:19-156:8.

Id. at 153:16-154:8;

Further, defense counsel conceded that a defense

expert could base his or her testimony on the report and
photographs, but there would likely be additional photographs of
the inside of the body.

Id. at 154:9-155:18.

Although there

was some discussion of business records, defense counsel did not
clearly raise a hearsay objection.

The court allowed Dr.

Collins to continue his testimony.

Id. at 159:7-9.

2.

Post-trial proceedings

Following the denial of his post-sentencing motions,
Petitioner appealed, raising several challenges including the
allegation that his right to confront adverse witnesses had been
violated.

SCR No. DIO; SCR No. D13 at 2, 5, 8-9.

On direct

appeal, the Superior Court affirmed the Trial Court.
D15 at 1; 8-10; see also ECF No. 23-1.

SCR No.

Like the Trial Court,

the Superior Court reasoned that Dr. Collins had not simply read
in portions of another medical examiner's report, but gave his
8

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 9 of 48

own opinions based on the facts in the reports and the
photographs.

SCR No. D15 at 9.

Furthermore, the Superior Court

noted that defense counsel took the opportunity to cross-examine
Dr. Collins.
3.

Id.
Habeas petition

In the Petition, Petitioner asserts that his rights
under the Constitution were violated because he was prevented
from confronting and cross-examining the medical examiner who
performed the autopsy and wrote the report.

ECF No. 1 at 10.

Petitioner argues that the state courts adjudicated
his claim by finding that:

1) "the autopsy reports were non­

testimonial and thus did not violate petitioner ['s]
confrontation rights," and 2) both [Drs. McDonald and Hood] were
unavailable to testify."

ECF No. 6 at 11.

Petitioner further

argues that the state courts should have taken existing Supreme
Court precedent that was not directly on point and extended it
to his case, and that to not do so was unreasonable.

Id. at 14-

15.
C.
Ground Four — Ineffective Assistance of Counsel for
Failure to Raise a Speedy Trial Claim
1.

Facts relating to the trial

The criminal complaint for the killing of Ms. Labance
was filed on July 14, 2006, and the trial began on February 17,

9

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 10 of 48

2009.6

See ECF No. 23-3 at 2.

Trial counsel did not file a

motion asserting a denial of Petitioner's right to a speedy
trial.
2.

Post-trial proceedings

Following his conviction, Petitioner asserted an
ineffective assistance claim pursuant to Pennsylvania's PostConviction Relief Act ("PCRA")

(42 Pa. Cons. Stat. §§ 9541-46).

First, acting pro se, Petitioner filed a PCRA petition listing
the indictment numbers for both murder convictions.

SCR No.

-DiJ7'7 Moh±on“f"o~r—Polit CbnvlTdtTofT-Collateral ReTTef at" 1.

In the

PCRA petition, Petitioner indicated that he was eligible for
relief, in part, because of a violation of the Constitution of
Pennsylvania or the Constitution of the United- States, and for
ineffective assistance of counsel.

Id. at 2.

Petitioner filed

a memorandum of law in support of his PCRA petition, but only
listed the indictment number for the Labance conviction.
No. D18 at 1.

SCR

In the memorandum, Petitioner indicated the same

general bases for relief, and then stated four issues:

(a)

denial of his constitutional rights in relation to the
arraignment;

(b) denial of his constitutional rights in relation

to pretrial conference hearings;

(c) trial counsel's failures

during plea negotiations; and (d) "Trial Counsel's fail[ure) to
e

Petitioner states "[f]rom the date the complaint was
filed on 7-14-06 to the date of trial on 2-7-09, a period of 915
days had elapsed." ECF No. 1 at 15.
10

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 11 of 48

raise [Petitioner's] right to a speedy trial pursuant to the 6th
and 14th Amendment[s] to the U.S. Constitution."

Id. M 12-13.

The memorandum presented the facts and legal arguments for each
of the four issuss, including the Sixth Amendment claims.

See

id. 1 30.
Subsequently, attorney John P. Cotter entered his
appearance for petitioner, and filed a document titled "Amended
Petition under Post-Conviction Relief Act" bearing only the
indictment number for the Labance conviction.
-—Amended“Pet:±td_ou—a~t~~T7
,

Cotter stated:

See SCR No. D21,

Tn the amended PCRA petition, attorney

"This Amended Petition specifically incorporates

all factual allegations in [the original PCRA petition] as
though expressly set forth herein."

Id., Amended Petition I 4.

The amended PCRA petition then stated that Petitioner was
asserting violations of the Constitutions of the U.S. and
Pennsylvania, as well as Pennsylvania's Rules of Criminal
Procedure:
Petitioner, hereafter also referred to
as the defendant, believes and
therefore avers the following errors
entitling him to relief in this Court:
a. Defendant's trial defense
counsel was ineffective because
he failed to file and litigate
an omnibus motion requesting
that the charges against
defendant be dismissed with
prejudice for lack of speedy
trial under the U.S. and
11

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 12 of 48

Commonwealth Constitutions and
Pa. Rule of Crim. Pro. 600.
Id., Amended Petition 1 5.

The remainder of that paragraph

listed facts and allegations about the timing and delays.

See

id.
The amended PCRA petition was accompanied by a
memorandum of law (again bearing only the indictment number for
the Labance conviction) that made legal arguments in specific
regard to Pennsylvania Rule of Criminal Procedure 600
600").
4.

("Rule

Id., Memorandum in Support of Amended Petition at 1, 2n

The Sixth Amendment was not at all mentioned, and the words

"U. S. Constitution" make only an evanescent appearance.

See

id., Memorandum in Support of Amended Petition at 1.
The Commonwealth moved to dismiss the petition,
arguing solely that Petitioner's Rule 600 claim was meritless.
See SCR No. D22.

The Commonwealth challenged how and why

Petitioner had attributed to the Commonwealth all of the delays
in bringing the case to trial that were not caused by the
Petitioner.

See id.

The Commonwealth's motion to dismiss

listed both of the indictment numbers and contained docket
sheets for both convictions as exhibits.

Id. at 1, Exs.A, B.

Subsequently, the Commonwealth moved to file a
corrected motion.

SCR No. D23.

Counsel for the Commonwealth

explained that he had inherited the case and had only the

12

Case 2:15-cv-04800-ER Documents Filed 12/21/18 Page 13 of 48

amended PCRA petition in the file, and so had moved to dismiss
both cases by challenging the Rule 600 claims in the amended
PCRA petition.

Id. at 1.

The Commonwealth's counsel explained

that he had been contacted by Petitioner's PCRA counsel,
attorney Cotter, who had explained that the Rule 600 claim
pertained only to the Labance conviction, and that a separate
petition had been filed in connection to the Conner conviction.
Id.
The Commonwealth then filed an amended motion to
dismiss, making the same substantive arguments but noting the
separate proceedings.

See SCR No. D24.

The PCRA Court held an evidentiary hearing as to the
Rule 600 issue, and then denied the PCRA petition.
No. 1, Ex. A at 3

See ECF

(see also SCR No. D29); ECF No. 30-6

(transcript of hearing held on November 25, 2013); SCR No. D2 6,
Criminal Docket.
Attorney Cotter filed a notice of appeal of the PCRA
Court's decision.

SCR No. D26.

Pursuant to an order of the

PCRA Court, issued under Pennsylvania Rule of Appellate
Froc®dure 1925(b), the notice of appeal identified several
errors complained of on appeal.

SCR No. D28.

The errors listed

included trial counsel's failure to file a motion to dismiss for
lack of a speedy trial, and the denial of the "U.S. and State
Constitutional right to a speedy/prompt trial."
13

Id.

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 14 of 48

Pursuant to Pennsylvania Rule of Appellate Procedure
1925(a), the PCRA Court issued its opinion and explained why the
Rule 600 claim failed, thoroughly listing the delays and the
bases for attributing or excusing those delays in bringing the
case to trial.

ECF No. 1, Ex. A at 26-30.

The PCRA Court's

opinion did not mention either the Sixth Amendment or the U.S.
Constitution in connection to the claim.

See id.

Petitioner maintained his appeal to the Superior
Court.

Attorney Cotter filed the brief in support and included

“t;Wi9’23Tb) statement' listing the alleged errors.

ECF.No. 23-6.

The sections in the brief covering the "statement of the case"
and the "summary of the argument" refer only to Rule 600,
arguing that trial counsel did not file a pre-trial Rule 600
motion despite there being a Rule 600 violation.

Id. at 5.

Throughout the brief, the argument concerned Rule 600.
6-8.

In one, and only one instance, the brief mentions

peripherally the Sixth Amendment:
The Purpose of Pa. R. Crim. P. 600.
Prompt Trial, is to protect the United
States and Commonwealth Constitutional
Rights of the defendant to a speedy
trial. See Pa. Const. Art. I sec. 9.
and 6th Amendment U.S. Constitution;
Commonwealth v Hamilton, 297 A2d 127
(Pa. 1972).
Id. at 7 (emphasis in original).

14

Id. at

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 15 of 48

The Superior Court affirmed the PCRA Court's denial of
the PCRA petition.

ECF No. 23-3 at 12.

After explaining the

contours of Rule 600 and its application, the Superior Court
determined there was no merit to the Rule 600 claim.
12 .

Id. at 6-

The Superior Court's opinion did not mention the Sixth

Amendment.

See id.
3.

Habeas petition

In the Petition, Petitioner asserts he was "denied
effective assistance of counsel when [his attorney] failed to
"file and~rrtrigate a speedy trial motion."

II.

ECF No. 1 at 15.

LEGAL STANDARD FOR HABEAS RELIEF
A.

Procedural Requirements
"State courts, like federal courts, are obliged to

enforce federal law."
(1999) .

O'Sullivan v. Boerckel, 526 U.S. 838, 844

State courts are the "principal forum for asserting

constitutional challenges to state convictions."
Richter, 562 U.S. 86, 103 (2011).

Harrington v.

Nonetheless, pursuant to the

Antiterrorism and Effective Death Penalty Act ("AEDPA"), a
person in state custody who wishes to assert that "he is in
custody in violation of the Constitution or laws or treaties of
the United States" may file a petition in federal court seeking
the issuance of a writ of habeas corpus.

15

See 28 U.S.C. § 2254.

Case 2:15-cv-04800-ER Documents Filed 12/21/18 Page 16 of 48

State courts have an initial "opportunity to pass upon
and correct alleged violations of its prisoners' federal
rights."

Picard v. Connor, 404 U.S. 270, 275 (1971)

marks omitted)

(citation omitted).

(quotation

To respect the state's

sovereign powers, the AEDPA has a procedural requirement that
the petitioner must first exhaust the remedies available in the
state court.

Id. § 2254 (b) (1); Harrington, 562 U.S. at 103

("[A] habeas petitioner challenging a state conviction must
first attempt to present his claim in state court.")

(citing 28

UTSTCT §“2~25 4 ( b)‘) :

To satisfy the exhaustion requirement, a federal claim
must be "fairly presented to the state courts."
Peoples, 489 U.S. 346, 351 (1989)

Castille v.

(quotation marks omitted)

(emphasis in original); see also Picard, 404 U.S. at 276 ("Only
if the state courts have had the first opportunity to hear the
claim sought to be vindicated in a federal habeas proceeding
does it make sense to speak of the exhaustion of state remedies.
Accordingly, we have required a state prisoner to present the
state courts with the same claim he urges upon- the federal
courts.").

Fair presentation requires a petitioner to present

the federal claim's factual and legal substance to the state
courts dn a manner that puts them on notice that a federal claim
is being asserted."

Mathias v. Superintendent Frackville SCI.

876 F.3d 462, 479 (3d Cir. 2017), cert, denied sub nom, Mathias
16

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 17 of 48

v. Brittain, 138 S. Ct. 1707 (2018)

(quotation marks omitted)

(quoting Robinson v. Beard, 762 F.3d 316, 328 (3d Cir. 2014));
see also Baldwin v. Reese, 541 U.S. 27, 29 (2004).
To complete the exhaustion requirement, the petitioner"must give the state courts one full opportunity to resolve any
constitutional issues by invoking one complete round of the
State's established appellate review process."
U.S. at 845.

O' Sullivan, 52 6

The Pennsylvania Supreme Court has ordered that

"in all appeals from criminal convictions or post-conviction
relief matters, a litigant shall not be required to petition for
rehearing or allowance of appeal following an adverse decision
by the Superior Court in order to be deemed to have exhausted
all available state remedies respecting a claim of error."

In

re Exhaustion of State Remedies in Criminal and Post—Conviction
Relief Cases, No. 218 Judicial Administration Docket No. 1 (Pa.
May 9, 2000); see also Lambert v. Blackwell, 387 F.3d 210, 233
(3d Cir. 2004).

Thus, in Pennsylvania, one complete round of

appellate review includes fairly presenting the federal claim
through the Superior Court, and a petitioner "need not seek
review from the Pennsylvania Supreme Court in order to give the
Pennsylvania courts a full opportunity to resolve any
constitutional claims. n

Lambert, 387 F.3d at 233-34.

A petitioner who fails to properly present federal
dsims to the state court in a timely fashion under state law
17

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 18 of 48

rules procedurally defaults on those claims.
U.S. at 848.

0' Sullivan, 52 6

A federal court may not review the defaulted

claims unless the petitioner can demonstrate either "cause for
the default and actual prejudice as a result of the alleged
violation of federal law," or "that failure to consider the
claims will result in a fundamental miscarriage of justice."
Coleman v. Thompson, 501 U.S. 722, 750 (1991).
To show "cause," a'petitioner must show "some external
impediment preventing counsel from constructing or raising the
claim."

Goldblum v. Klem, 510 F.3d 204, 215 (3d Cir. 2007)

(quoting McCleskey v. Zant, 499 U.S. 467, 497

(1991)).

The

prejudice must be "actual prejudice," and the petitioner must
show that the "errors .

.

. worked to his actual and substantial

disadvantage, infecting his entire trial with error of
constitutional dimensions."

Id. at 215-16 (quoting United

States v. Frady, 456 U.S. 152, 170 (1982)).
"The fundamental miscarriage of justice exception is
narrow."

Coleman v. Greene, 845 F.3d 73 (3d Cir. 2017).

It

only applies to "cases in which new evidence shows it is more
likely than not that no reasonable juror would have convicted
the petitioner."

McQuiqqin v. Perkins, 569 U.S. 383, 395

(quotation marks and alterations omitted).

18

(2013)

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 19 of 48

B.
Referral to a Magistrate Judge for Report and
Recommendation
A district court may refer an application for a writ
of habeas corpus to a United States magistrate judge for a
report and recommendation.

See Rules Governing § 2254 Cases, R.

10 ("A magistrate judge may perform the duties of a district
judge under these rules, as authorized under 28 U.S.C. § 636.").
A prisoner may object to the magistrate judge's report and
recommendation within fourteen days after being served with a
copy thereof.
72.1(IV)(b).

See 28 U.S.C. § 636(b)(1); E.D. Pa. Local Civ. R.
The district court then "make[s] a de novo

determination of those portions of the report or specified
proposed findings or recommendations to which objection is
made."

28 U.S.C. § 636 (b) (1) .
Ultimately, the court "may accept, reject, or modify,

in whole or in part, the findings or recommendations made by the
magistrate judge."

28 U.S.C. § 636(b)(1).

required to review general objections.
F.3d 193, 195 (3d Cir. 2011)

A court is not

See Brown v. Astrue, 649

("We have provided that § 636(b)(1)

requires district courts to review such objections de novo
unless the objection is 'not timely or not specific. / //
added)

(quoting Goney v. Clark. 749 F.2d 5,

19

6-7

(emphasis

(3d Cir. 1984)).

Case 2:15-cv-04800-ER Documents Filed 12/21/18 Page 20 of 48

C.

Merits of Habeas Petition
A federal court may only grant relief in a § 2254

habeas petition if the state court's adjudication of the merits
of the claims raised resulted in a decision that was:

"(1)

contrary to, or involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme Court of
the United States; or (2) "based on an unreasonable
determination of the facts in light of the evidence presented in
the State court proceeding."

28 U.S.C. § 2254 (d) .

The Supreme Court "has explained the necessary analysis
for each clause of § 2254(d).

"Under the 'contrary to' clause,

a federal habeas court may grant the writ if the state court
arrives at a conclusion opposite to that reached by [the
Supreme] Court on a question of law or if the state court
decides a case differently than [the Supreme] Court has on a set
of materially indistinguishable facts."

Williams v. Taylor, 529

U.S. 362, 412-13 (2000).
In both of the "unreasonable" clauses, "the federal
habeas court [is] to train its attention on the particular
reasons- both legal and factual—why state courts rejected a
state prisoner's federal claims, and to give appropriate
deference to that decision."
1188,

1191-92 (2018)

Wilson v. Sellers, 138 S. Ct.

(quotation marks and citations omitted).

"[W]hen the last state court to decide a prisoner's federal
20

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 21 of 48

claim explains its decision on the merits in a reasoned opinion
t 3 federal habeas court simply reviews the specific
reasons given by the state court and defers to those reasons if
they are reasonable."

Id. at 1192.

"Under the 'unreasonable application'

clause, a

federal habeas court may grant the writ if the state court
identifies the correct legal principle from [the Supreme]
Court's decisions but unreasonably applies that principle to the
facts of the prisoner's case."

Williams, 529 U.S. at 413.

[TJfie 'unreasonable application' inquiry .

.

. asks whether the

state court's application of clearly established federal law was
objectively unreasonable."

Id. at 409.

"[A]n unreasonable

aPplication of federal law is different from an incorrect
application of federal law."

Id. at 410.

"[A] federal habeas

court may not issue the writ simply because that court concludes
in its independent judgment that the relevant state-court
decision applied clearly established federal law erroneously or
incorrectly.

Rather, that application must also be

unreasonable."

Id. at 411.

Under the "unreasonable determination of the facts"
clause, "state-court factual determinations [may not be
characterized] as unreasonable merely because [the federal
court] would have reached a different conclusion in the first
instance."

Brumfield v. Cain, 135 S. Ct. 2269, 2277
21

(2015)

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 22 of 48

(quotation marks omitted)
301 (2010)).

(quoting Wood v. Allen, 558 D.S. 290,

Rather, the federal court "must accord the state

trial court substantial deference."

Id.

"State-court factual

findings, moreover, are presumed correct; the petitioner has the
burden of rebutting the presumption by 'clear and convincing
evidence.

r //

Davis v. Ayala, 135 S. Ct. 2187, 2199-200 (2015)

(quoting Rice v. Collins, 546 U.S. 333, 338 (2006)).
A federal court cannot grant habeas relief on state
law grounds.
T0T2T7

Sistrunk v. Rozum, 674 F.3d 181, 186 (3d Cir.

Instead, a federal court may only grant relief on the

ground that a petitioner "is in custody in violation of the
Constitution or laws or treaties of the United States."

u.s.c.

28

§ 2254(a); see also Carnevale v. Superintendent Albion

Sci, 654 F. App'x 542, 547 (3d Cir. 2016)
§ 2254(a)).

(quoting 28 U.S.C.

"[A] state court's interpretation of state law,

including one announced on direct appeal of the challenged
conviction, binds a federal court sitting in habeas corpus."
Bradshaw v. Richey, 546 U.S. 74, 76 (2005); see also Rountree v.
Balicki, 640 F.3d 530, 539 (3d Cir. 2011)

("The District Court

. . . was bound to accept the state court's conclusions of state
law in applying [the state's rules].").
In conducting its review of a habeas petition, the
federal court should bear in mind that "[a] habeas corpus
petition prepared by a prisoner without legal assistance may not
22

Case 2:15-cv-04800-ER Documents Filed 12/21/18 Page 23 of 48

be skillfully drawn and should thus be read generously."

Rainey

v. Varner, 603 F.3d 189, 198 (3d Cir. 2010); see also D.S. ex
rel. Montgomery v. Brierley, 414 F.2d 552, 555 (3d Cir. 1969)
( It is the policy of the courts to give a liberal construction
to pro se habeas petitions.").
Petitioner has filed objections to Ground Two (seeking
relief based on the alleged violation of the "Confrontation
Clause") and Ground Four (seeking relief based on the alleged
failure of counsel to challenge a violation of Pennsylvania's
speedy trial protections under Rule 600).

The Court makes a de

.novo determination of the merits of Grounds Two and Four, as
discussed below.
III. GROUND TWO

CONFRONTATION CLAUSE

Petitioner's Confrontation Clause claim went through
one complete round of appellate review by the state courts.
Therefore, the Court may consider the merits of Petitioner's
argument in support of his petition for habeas relief.
The Court denies the Petition on this ground for
failing to meet either of the two tests in § 2254(d).

First,

the state courts did not adjudicate the Confrontation Clause
claim

contrary to, or [by] involv[ing] an unreasonable

application of, clearly established Federal law, as determined
by the Supreme Court of the United States."
§ 2254(d) (1) .

28 U.S.C.

Petitioner concedes that there is no clearly
23

Case 2:15-cv-04800-ER Documents Filed 12/21/18 Page 23 of 48

be skillfully drawn and should thus be read generously."

Rainey

v. Varner, 603 F.3d 189, 198 (3d Cir. 2010); see also U.S. ex
rel. Montgomery v. Brierley, 414 F.2d 552, 555 (3d Cir. 1969)
("It is the policy of the courts to give a liberal construction
to pro se habeas petitions.").
Petitioner has filed objections to Ground Two (seeking
relief based on the alleged violation of the "Confrontation
Clause") and Ground Four (seeking relief based on the alleged
failure of counsel to challenge a violation of Pennsylvania's
speedy trial protections under Rule 600).

The Court makes a de

.novo determination of the merits of Grounds Two and Four, as
discussed below.
III. GROUND TWO -

CONFRONTATION CLAUSE

Petitioner's Confrontation Clause claim went through
one complete round of appellate review by the state courts.
Therefore, the Court may consider the merits of Petitioner's
argument in support of his petition for habeas relief.
The Court denies the Petition on this ground for
failing to meet either of the two tests in § 2254(d).

First,

the state courts did not adjudicate the Confrontation Clause
claim "contrary to, or [by] involv[ing] an unreasonable
application of, clearly established Federal law, as determined
by the Supreme Court of the United States."
§ 2254(d) (1) .

28 U.S.C.

Petitioner concedes that there is no clearly
23

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 24 of 48

established Federal law concerning autopsy reports.
Furthermore, given the disagreement among the Circuit Courts of
Appeals, it was not so obvious that any fairminded jurist would
find that the autopsy reports were testimonial.
Second, the state courts did not adjudicate the claim
"based on an unreasonable determination of the facts in light of
the evidence presented in the State court proceeding."
28 U.S.C. § 2254(d) (2) .

The state courts made no finding about

the availability of the medical examiners who wrote the autopsy
reports.

Furthermore, the state courts did not have to rule on

a hearsay objection to the reports because none was made.
A.

Clearly established Federal law
The Sixth Amendment's Confrontation Clause guarantees

that a criminal defendant has the right "to be confronted with
the witnesses against him."

U.S. Const, amend. VI.

The

Confrontation Clause prevents the "admission of testimonial
statements of a witness who did not appear at trial unless he
was unavailable to testify, and the defendant•had had a prior
opportunity for cross-examination."
U.S. 813, 821 (2006)
36, 53-54 (2004)).
.

Davis v. Washington, 547

(quoting Crawford v. Washington, 541 U.S.
testimonial character of the statement

. separates it from other [types of] hearsay."

Id.

Petitioner argues that the autopsy reports were
testimonial.

the Supreme Court has not ruled on whether
24

Case 2:15-cv-04800-ER Documents Filed 12/21/18 Page 25 of 48

autopsy reports are testimonial or not, and Petitioner and the
Commonwealth agree that there is no Supreme Court precedent
holding that autopsy reports are testimonial.
14

See ECF No. 6 at

( The mere fact that no United States Supreme Court decision

is directly on point and says autopsy reports are testimonial,
does not in and of itself defeat petitioner's claim."); ECF No.
23 at 20 n.6 ("The question of whether autopsy reports are
'testimonial' is unsettled.").

Indeed, the Commonwealth cites

decisions from the Second and Eleventh Circuit Courts of Appeals
±-o^drl-u-st-rate-rhe"dlvislon,.. and“^ First Circuit diFisio^lnaking
the same point.

See ECF No. 23 at 20 n.6 (citing United States

v. James, 712 F.3d 79,

97 100 (2d Cir. 2013)

(not testimonial);

United States v. Ignasiak, 667 F.3d 1217, 1231 (11th Cir. 2012)
(testimonial); Hensley v. Roden, 755 F.3d 724, 733-34
2014)

(testimonial question is unsettled)),

the R&R, Petitioner cited the same cases.

(1st Cir.

In his objection to
See ECF No. 39 f 33.

Undaunted by the unsettled law, Petitioner argues that
his claim is not necessarily defeated.

ECF No. 6 at 14.

Petitioner argues that the state courts should have applied the
general principles from the Supreme Court's precedents to his
case, and they acted unreasonably by not doing so.

See id. at

14-15 (citing Williams v. Taylor. 529 U.S. 362, 412 (2000)).
support, Petitioner contends:

25

In

Case 2:15-cv-04800-ER Documents Filed 12/21/18 Page 26 of 48

Where there is no case directly on
point, ADEPA permits relief if a state
court either unreasonably extends a
legal principle from the Supreme
Court's precedent to a new context
where it should not apply or
unreasonably refuses to extend that
principle to a new context where it
should apply.
Id. at 15 (quoting Williams

529 U.S. at 407)

(alterations and

quotation marks omitted).
Petitioner's argument rests on unsound ground, and a
fuller investigation of the quoted passage reveals that the
legal test averred by Petitioner is not Supreme Court precedent.
Petitioner's quote from Williams is misleading because the
context and surrounding discussion were not provided.

Before

this quoted passage, the Supreme Court stated that "[t]he Fourth
Circuit's interpretation of the 'unreasonable application'
clause of § 2254(d)(1) is generally correct."
U.S. at 407 (emphasis added).

Williams, 529

Later in the opinion, the Supreme

Court stated that the Fourth Circuit's holding regarding the
"unreasonably refuse[s] to extend" principle had "some problems
of precision."

Id. at 408.

And.further on, the Supreme Court

explained that the case at hand did not require resolving the
correctness of the Fourth Circuit's approach, and so it declined
to do so, and did not hold that the approach was valid.
408-09.

In context, then, it is clear the quoted legal

26

Id. at

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 27 of 48

principle is a not a pronouncement by the Supreme Court of the
law, but a recitation of the Fourth Circuit's view.
Fatally undermining Petitioner's argument, the Supreme
Court has since unequivocally rejected the Fourth Circuit's
approach.

In a later opinion, the Supreme Court explained that

it had taken "no position on the Fourth Circuit's further
conclusion that .a state court commits AEDPA error if it
'unreasonably refuses to extend a legal principle to a new
context where it should apply.
415, 425 (2014)
at 408-09).

t rr

White v. Woodall, 572 U.S.

(alteration omitted)

(quoting Williams, 529 U.S.

Indeed, the Supreme Court explained that in an

opinion issued two months after Williams, a plurality had
"paraphrased" the Fourth Circuit's concept but did not grant
relief on that basis.
156, 166-70 (2000)

Id.

(citing Ramdass v. Anqelone, 530 U.S.

(plurality opinion)).

The Supreme Court then put an end to the matter,
unequivocally rejecting the approach:
[T]his Court has never adopted the
unreasonable-refusal-to-extend rule on
which respondent relies,
It has not
been so much as endorsed in a majority
opinion, let alone relied on as a basis
for granting habeas relief.- To the
extent the unreasonable-refusal-toextend rule differs from the one
embraced in Williams and reiterated
many times since, we reject it.
Id. at 426 (emphasis added).

27

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 28 of 48

Ultimately, the Supreme Court in White explained the
duty of state courts to follow clearly established Federal law,
and under what circumstances it would be unreasonable for state
courts to not apply the law to a given set of facts:
[S]tate courts must reasonably apply
the rules squarely established by this
Court's holdings to the facts of each
case.
The difference between applying
a rule and extending it is not always
clear, but certain principles are
fundamental enough that when new
factual permutations arise, the
necessity to apply the earlier rule
will be beyond doubt. The ___
_________
critical
point is that relief is available under
§ 2254(d)(l)'s unreasonable-application
clause if, and only if, it is so
obvious that a clearly established rule
applies to a given set of facts that
there could be no fairminded
disagreement on the question.
Id. at 427

(citations, quotation marks and alterations omitted;

emphasis added).
The foregoing exposition shows why Petitioner's
unreasonable-failure-to-extend argument fails for two reasons.
First, as already stated above, there is no "clearly established
Federal law" or "squarely established" rules concerning autopsy
reports.
Second, whatever the clearly established law is, the
Circuit Courts disagree about how to apply it to autopsy
reports, thus it is not "so obvious" on how to apply existing,

28

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 29 of 48

clearly established Federal law such that there is no
"fairminded disagreement."
In response to the R&R, Petitioner argues several
reasons why autopsy reports should be deemed testimonial.
ECF No. 39 15 34-40.

See

Whatever the merits of Petitioner's

argument in his objection, based on entries in Black's Law
Dictionary and a hypothetical example, the Court must still deny
the Petition on Ground Two.

Although Black's Law Dictionary is

a staple item for judges, lawyers, and law students alike, that
venerable lexicon is simply not the authority that this Court
must look to in order to resolve the merits of a § 2254
petition.
B.

Determination of the facts
Petitioner argues that the Trial Court unreasonably

determined facts by finding that Dr. Hood was unavailable to
testify.

ECF No. 6 at 17.

Petitioner asserts, without support,

that Dr. Hood "was in the general area and susceptible to
subpoena."

Id. at 18.
Petitioner's argument is rendered moot by this Court's

findings discussed above.

The Trial Court was not required to

make any factual findings about Dr. Hood's unavailability to
testify because the autopsy reports were not deemed to be
testimonial.

Absent a determination that the autopsy reports

were testimonial, and without a proper hearsay objection
29

Case 2:15-cv-04800-ER Documents Filed 12/21/18 Page 30 of 48

requiring resolution, the "unreasonably determined facts"
argument is meritless.
C.

Conclusion
The Court finds that the Petition lacks merit on

Ground Two, and therefore denies the Petition on this ground.
Before leaving this topic, the Court notes the
testimony provided by Dr. Collins, and the objections and
discussions at trial.

There was no actual dispute that both Ms.

Labance and Mr. Conner died of gunshot wounds and that Dr.
"CdlTlns was competent to' provide expert testimony to that effect
even without the autopsy reports.

First, aside from the autopsy

reports, the photographs showed the wounds made by the multiple
9mm bullets in each victim, and because the victims were shot at
close enough range, the photographs even showed the stippling
patterns on the skin of the victims.

Second, as an expert, Dr.

Collins was capable of testifying about the effects of these
gunshot wounds.

Third, defense counsel agreed that the cause of

death was not in dispute:
Trial Court:

It's clearly a shooting.
It's not like it's some
questionable medication or
something like that, It's
clearly a shooting, What's
the big deal here? Cause of
death, let's see, gunshot
wound.
★★★

Am I wrong?

30

★★★

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 31 of 48

Defense Counsel:

No.
***

Trial Court:

I mean, is the wound path
something that is in dispute
or something that is critical
to the rendering of the
opinion as to the cause of
death, that it was gunshots?

Defense Counsel:

Not that I know.

Trial Court:

Multiple gunshot wounds?

Defense Counsel:

Not that I know.

ECF No. 30-2 at 153:24-154:8; 156:1-8.
With the cause of death determinable from other
evidence, and defense counsel not disputing the cause of death,
even if Petitioner's Confrontation Clause were to be successful,
it would not warrant overturning his conviction on the basis
that the cause of death of either victim was not proven beyond a
reasonable doubt.

IV. GROUND FOUR — INEFFECTIVE ASSISTANCE FOR FAILING TO RAISE
A RULE 600 CLAIM
Petitioner's ineffective assistance claim premised on
a failure to file a motion seeking relief for the Commonwealth's
alleged violation of Rule 600 went through one complete round of
■appellate review by the state courts.

Therefore, the Court may

consider the merits of Petitioner's argument in support of his
petition for habeas relief.
31

Case 2:15-cv-04800-ER Documents Filed 12/21/18 Page 32 of 48

The merits of Johnston's ineffectiveness claim turn
solely on the state law question of whether there was any merit
to bringing a motion to dismiss the case with prejudice for
failing to comply with Rule 600.

The Superior Court considered

and analyzed the facts of the delays in bringing the case to
trial, who was responsible, and the diligence of the
Commonwealth, and ruled that there was no merit to a claim that
Rule 600 had been violated.

See ECF No. 23-3.

This Court must accept the Superior Court's
conclusions of state law in applying Pennsylvania's rules.
Bradshaw, 546 U.S. at 76; Rountree, 640 F.3d at 539.

Thus, this

Court is presented with an argument that trial counsel was
ineffective for failing to raise a meritless claim,

Such a

claim of ineffectiveness fails because "there can be no Sixth
Amendment deprivation of effective counsel based on an
attorney's failure to raise a meritless argument."

United

States v. Bui, 795 F.3d 363, 366-67 (3d Cir. 2015)

(quoting

United States v. Sanders, 165 F.3d 248, 253 (3d Cir. 1999)).
The Court denies the Petition on Ground Four premised
on failing to bring a motion for violating Rule 600.

32

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 33 of 48

v. GROUND FOUR
INEFFECTIVE ASSISTANCE FOR FAILING TO RAISE
A SIXTH AMENDMENT CLAIM
Petitioner's ineffective assistance claim premised on
e failure to file a motion seeking relief for the Commonwealth's
violation of the Sixth Amendment did not go through one complete
round of appellate review by the state courts.

Furthermore,

Petitioner has not shown that there was cause for the failure to
present the claim to the state courts or actual prejudice as a
result of the alleged violation of federal law.

Finally, there

will not be a fundamental miscarriage of justice if the claim is
not considered.

Therefore, the Court may not rule on the merits

of this claim.
A.

The R&R and Petitioner's Objections
In the R&R, Magistrate Judge Sitarski explained her

findings in a footnote that "[t]o the extent that Petitioner
alleges counsel was ineffective for failing to raise a Sixth
Amendment speedy trial claim, this ineffectiveness claim is
unexhausted and procedurally defaulted."

ECF No. 32 at 22 n.14.

Petitioner's objections to the R&R on this ground
argue otherwise—the claim is exhausted and not procedurally
defaulted, therefore this Court can review the merits.
39 If 41-75.

ECF No.

First, on whether the claim was properly presented

to the PCRA Court, Petitioner argues that "it would be clearly
unfair and prejudicial to deny your Petitioner this claim based

33

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 34 of 48

upon PCRA counsel's incompetent bald assertion regarding Rule
600 and the Sixth Amendment."

Id. 1 42.

Following this

description of attorney Cotter's efforts, Petitioner argues that
Rule 600, the federal Speedy Trial Act (18 U.S.C. §§ 3161-74),
and the Sixth Amendment are "co-extensive .

.

. meaning that

they are one [and] the same and a claimed violation of [Rule
600] is a claimed violation of the Sixth Amendment."

Id. I 43.

Petitioner then builds on his one-and-the-same proposition to
argue that the state courts had fair notice of his Sixth
Amendment claim.

Id. M 43-49.

Finally, Petitioner argues the

merits of the unduly-delayed prosecution claim and the merits of
the ineffectiveness claim.

Id. M 50-75.

B.
Petitioner's claim is unexhausted and procedurally
defaulted
This case presents an issue stemming from disparities.
between initial pro se filings and subsequent counseled filings.
To determine whether Petitioner has exhausted his claim, the
Court must determine whether Petitioner presented his Sixth
Amendment claim in such a fashion as to give the state courts
"an initial opportunity to pass upon and correct" the alleged
violation.

Picard, 404 U.S. at 275 (internal quotation marks

omitted).
Pennsylvania's courts reject petitions that would
require combining the filings of a petitioner and his counsel—

34

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 35 of 48

so-called "hybrid petitions."

See, e.g., Commonwealth of Pa. v.

Cooper, 27 A.3d 994, 1000 & n.9 (Pa. 2011)

("[T]he disapproval

of hybrid representation is effective at all levels" in
Pennsylvania's courts); Hatcher v. Ct. of Common Pleas of Phila.
Cnty., 104 A.3d 1155 (2014)

(dismissing petition for writ of

mandamus as an "improper attempt(] at hybrid representation");
Castillo v. All Jane/John Does Staff/Supervisors from PA Ct. of
Common Pleas Clerk of Cts, 672 F. App'x 178, 179 (3d Cir. 2016)
(Pennsylvania's "state courts would not entertain hybrid
representation").
At least one court within the Eastern District has
faced a situation involving differences between pro se and
counseled filings.

See Blount v. Coleman, Civil Action No. 13-

3094, 2014 WL 5317766, at *6-8 (E.D. Pa. Oct. 17, 2014) .

In

Blount, the prisoner filed his initial PCRA petition pro se,
listing a speedy trial Sixth Amendment claim.

Id. at *7.

After

the petition, the prisoner then obtained counsel who
filed an amended petition presenting only a Rule 600 claim.

Id.

The prisoner later filed an appeal of the PCRA decision linking
the Rule 600 claim to a Sixth Amendment claim.

Id.

The

Superior Court "acknowledged" that both claims were raised but
only addressed the Rule 600 claim.

Id.

The district court

reviewing the habeas petition found that the prisoner in Blount

35

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 36 of 48

had fairly presented the Sixth Amendment claim, and then
proceeded to address the merits of that claim.

Id.

Petitioner's case has important differences from
Blount.

Unlike in Blount, the federal claim here was not

presented to the PCRA Court or Superior Court for the following
three reasons.

ECF No. 23-6, Ex. A-l at 7.

First, Petitioner

accepted representation by counsel during the PCRA proceedings.
Petitioner did not object when his counsel filed the amended
PCRA petition.

In-so-doing, Petitioner effectively adopted the

amended PCRA petition and disavowed the pro se version (the
original PCRA petition).

Thus, the only petition before the

PCRA Court was the amended PCRA petition because the PCRA Court,
like any other court in Pennsylvania, would not consider the pro
se-drafted petition alone or in conjunction with the counseldrafted petition.
Second, the amended PCRA petition only vaguely alludes
to federal constitutional rights.

The background to the case

and the arguments were premised on state law (Rule 600).

The

PCRA Court was not presented with a Sixth Amendment-based claim.
Third, the appeal of the PCRA Court's decision also
makes- only a glancing referencing to the Sixth Amendment, again
in the context of Rule 600.

The argument in the brief concerns

Rule 600, not the Sixth Amendment.

The Superior Court was not

fairlY notified of a Sixth Amendment-based challenge.
36

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 37 of 48

Furthermore, unlike in Blount, neither the PCRA Court
nor the Superior Court acknowledged that there even was a Sixth
Amendment-based claim to consider.
Placing the matter in context, and under the
circumstances of this case, it is plain to see that the state
courts were not presented with an ineffective assistance of
counsel claim premised on a failure to file a Sixth Amendment
challenge.

Accordingly, Petitioner's federal claim is

unexhausted, and given the time bar, procedurally defaulted.
See ECF No. 32 at 22 n.14, 24 n.16.
Under the AEDPA, the Court may not consider the merits
of Petitioner's Sixth Amendment-based federal claim unless
Petitioner demonstrates either:

1) cause for the default and

actual prejudice as a result of the alleged violation of federal
law; or 2) failure to consider the claims will result in a
fundamental miscarriage of justice.
Petitioner cannot meet either of these two tests.
First, he cannot show cause for the default that stems from some
external impediment preventing him or his counsel from
constructing or raising the claim.

Petitioner has demonstrated

that he is capable of making arguments and conducting "jailhouse
lawyering."

There is no showing that both Petitioner and his

counsel were prevented from raising the claim.

Second,

Petitioner cannot show that there was a fundamental miscarriage
37

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 38 of 48

of justice.

Petitioner has not shown that there is any new

evidence at issue that if considered would make it more likely
than not that no reasonable juror would have convicted him.
Accordingly, the Court cannot review Petitioner's
Sixth Amendment-based claim.

C.

The merits of the Sixth Amendment-based claim
Even if the Court were to consider Petitioner's claim

of ineffective assistance of counsel for failure to raise a
Sixth Amendment challenge, his argument lacks merit because the
underlying Sixth Amendment challenge would have lacked merit.
Accordingly, relief on this ground could not be granted even if
the claim was properly before the Court.
1.
The Sixth Amendment and Rule 600 are not CoExtensive
To be clear on the nature of the Sixth Amendment claim
now at issue, the Court rejects Petitioner's argument that Rule
600 and the Sixth Amendment are co-extensive in regard to the
United States Constitution's guarantee of the right to a speedy
and public trial.

While Rule 600 sets a time limit, with

various rules for determining how to calculate and assess
delays, the Sixth Amendment has no such time limit or rules, and
so facially the two are not coextensive.

See also Wells v.

Petsock,

(Pennsylvania's speedy

941 F.2d 253, 256 (3d Cir. 1991)

38

Case 2:15-CV-04800-ER Document 41 Filed 12/21/18 Page 39 of 48

trial rule "does not define the contours of the federal
constitutional right to a speedy trial").
2.

Barker Analysis

The Constitution's guarantee to a speedy trial is not
"quantified into a specified number of days or months."
v. Wingo, 407 U.S. 514, 523 (1972).

Barker

To determine whether there

has been a deprivation of the right to a speedy trial, the court
must use

a balancing test, in which the conduct of both the

prosecution and the defendant are weighed."
"fa‘ctors"~a re~considered!

Id. at 530.

Four

1) the- length” oTthe*’delay; 2) the

reason for the delay; 3) the defendant's assertion of his right;
and 4) the prejudice to the defendant.

Id.

In conducting the speedy trial analysis, "none of the
four factors" is "either a necessary or sufficient condition to
the finding of a deprivation of the right of speedy trial."
at 533.

Id.

Instead, the "factors have no talismanic qualities;

courts must still engage in a difficult and sensitive balancing
process."

Id. ; see also Vanlier v. Carroll, 384 F. App'x 155,

158 (3d Cir. 2010)

(balancing of all four factors required).

The Court finds that, on balance, Petitioner has not
shown that there was merit to a claim that he was deprived of
his Sixth Amendment right to a speedy trial,

The Court has

considered the reasons for the delays with the presumption that
the factual findings of the Superior Court are correct, unless
39

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 40 of 48

the petitioner presented clear and convincing evidence to the
contrary.

28 U.S.C. § 2254(e)(1); Miller-El v. Cockrell, 537

U.S. 322, 341 (2003)

(clear and convincing standard in

§ 2254(e)(1) applies to factual issues).

In doing so, the Court

presumes both explicit and implicit findings of fact are
correct.

Campbell v. Vaughn, 209 F.3d 280, 286 (3d Cir. 2000).
3.

Factor one: length of delay

To trigger a speedy trial analysis, the petitioner
"must allege that the interval between accusation [or arrest]
trial has crossed the threshold dividing ordinary from
'presumptively prejudicial' delay."
505 U.S. 647, 651-52 (1992)

Doggett v. United States,

(citing Barker, 407 U.S. at 530-31).

"Depending on the nature of the charges, the lower courts have
generally found post-accusation delay 'presumptively
prejudicial' at least as it approaches one year."

Id. at 652

n. 1.
"If the [petitioner] makes this showing, the court
must then consider, as one factor among several, the extent to
which the delay stretches beyond the bare minimum needed to
trigger judicial examination of the claim."
Barker, 407 U.S. at 533-34).

Id. at 647

(quoting

Once the showing is made, the

cour"t must consider and balance all of the Barker factors.
see also Vanlier, 384 F. App'x at 158

40

(admonishing the state

Id. ;

Case 2:15-cv-04800-ER Documents Filed 12/21/18 Page 41 of 48

court for conducting a "short-circuited" analysis that focused
only on the prejudice factor).
Here, Petitioner asserts variously that 915 days (ECF
No. 1 at 15) or 31 months (see, e.q., ECF No. 39 SI 52) elapsed
between his arrest and trial in the Labance case.

Whichever of

these two periods is considered, the length of time (about two
and a half years) is sufficient to trigger the initial
presumption that Petitioner was prejudiced.
To be clear on the number of days at issue, the
Superior Court found that the criminal complaint was filed on
July 14, 2006 and the trial started on February 17, 2009.
No. 23-3 at 10.

ECF

This is a total of 949 days, or about 31

months.
4.

Factor two: reason for delay

For the second factor, if the government has exercised
"reasonable diligence" between arrest and trial, a petitioner's
claim will fail.

Doggett, 505 U.S. at 656.

Such a result will

"generally follow as a matter of course however great the delay,
so long as [the petitioner does] not show specific prejudice to
his defense."

Id.

On the other hand, if the government

intentionally delays bringing the case to trial in order "to
gain some impermissible advantage at trial," the court will
weigh that fact "heavily against the government."

41

Id.

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 42 of 48

Negligent conduct "occupies the middle ground," and
neither compels relief nor precludes relief, even if the
petitioner cannot show how he has been prejudiced.
57.

Id. at 656-

But negligence "still falls on the wrong side of the divide

between acceptable and unacceptable reasons for delaying a
criminal prosecution once it has begun."

Id. at 657.

Negligence and overcrowded courts are "more neutral reason [s],"
and they weigh less heavily against the government.
Virgin Islands v. Pemberton, 813 F.2d 626,

628

Gov't of

(3d Cir. 1987) .

" [T] deration of negligence varies inversely with its
protractedness."

Doggett, 505 U.S. at 657

Youngblood, 488 U.S. 51 (1988)).

(citing Arizona v.

Thus, "to warrant granting

relief, negligence unaccompanied by particularized trial
prejudice must have lasted longer than negligence demonstrably
causing such prejudice."

Id.

"Findings on the cause of the delay are entitled to a
§ 2254(d) presumption of correctness if petitioner had a fair
opportunity to present his version of events and the state's
findings on the issue are fairly supported by the record."
Hakeem v. Beyer, 990 F.2d 750, 767 (3d Cir. 1993).
During the 949 days between arrest and trial, there
were several delays caused by the Petitioner and the Trial
Court.

ECF No. 23-3 at 10-12.

The PCRA Court prepared a chart

listing the case chronology from the time between the arrest and
42

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 43 of 48

trial.

See ECF No. 1, Ex. A at 27-29.

The chart was based on

the state court docket and testimony adduced at the PCRA hearing
held on November 25, 2013.

See ECF No. 1, Ex. A; ECF No. 30-6.

Several delays are attributable to the Petitioner, and
those amount to 425 days in total.

ECF No. 1, Ex. A at 27-29

(7/19/2006-8/2/2006; 8/30/2006-10/3/2006; 11/16/2006-12/13/2006;
12/13/2006-1/10/2007; 1/10/2007-1/11/2007; 1/11/2007-2/1/2007;
8/6/2007-4/23/2008; 9/15/2008-10/10/2008; 11/10/2008-11/24/2008;
11/24/2008-2/17/2009) .

Of the remaining 524 days, 261 days were
a period of 176 days was

attributable to the Trial Court:

caused by the Trial Court judge's need for surgery; a period of
85 days was caused by the Trial Court's scheduling error.
(4/23/2008-9/15/2008) .

Id.

Thus, taking into account the delays by

Petitioner and the Trial Court, only 263 days were attributable
to the Commonwealth, which is a perfectly reasonable amount of
time in which to prepare for and bring a double murder case.
The assistant district attorney testified that he was ready to
proceed every time the case was listed for trial.

Id. Ex. A at

29.
Petitioner has made no showing that the delays
attributable to the Commonwealth were due to bad faith or
dilatory purposes.

Petitioner argued to the Superior Court that

the Commonwealth should have sought to have the case assigned to
another judge during the delay caused by the judge's surgery.
43

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 44 of 48

At most, however, the Commonwealth's failure to seek a new trial
judge was negligence, and thus at most, the delay of 176 days
(six months) would weigh only slightly in Petitioner's favor.
5.

Factor three: assertion of speedy trial rights

For the third factor, Petitioner is responsible for
asserting the right.
assert the right .

.

Barker, 407 U.S. at 531.

"[F]ailure to

. make[s] it difficult for a [petitioner]

to prove that he was denied a speedy trial."

Id. at 532.

For

the Court to consider assigning any weight to this factor, a
"petitioner must, show he made a 'reasonable assertion of the
speedy trial right."
omitted)

Hakeem,

990 F.2d at 764

(quoting Pemberton, 813 F.2d at 629).

(alteration
The Third

Circuit has given only little weight in favor of a petitioner
where no formal correspondence or motion was made, and the
petitioner only wrote informal correspondence to the trial
court.

Id. at 766.

If a petitioner makes no assertion, the

factor weighs against the petitioner's claim.
v. Battis, 589 F.3d 673,

See United States

681 (3d Cir. 2009); United States v.

Coleman, No. CIV.A. 10-2013, 2012 WL 1231800, at *4 (E.D. Pa.
Apr. 12, 2012); United States v. Woods, No. 3:CR-06-063, 2013 WL
1246816, at *7 (M.D. Pa. Mar. 27, 2013).
Here, Petitioner did not assert the right by sending
any formal or informal correspondence to the Trial Court.
Instead, Petitioner avers that he "asserted this right by
44

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 45 of 48

bringing it up to his trial counsel on several occasions" who
never acted upon Petitioner's assertions.

ECF No. 39 S[ 65.

By

failing to at least write an informal letter to the Trial Court,
Petitioner failed to make any assertion of the right.

The third

Barker factor weighs against Petitioner.
6.

Factor four: actual prejudice

On the fourth factor, "Petitioner must demonstrate
non-speculative prejudice."

Brown v. United States, No. CIV.A.

12-0710, 2012 WL 6016886, at *2

(W.D. Pa. Dec. 1, 2012)

-Un-i-tisrd--STrates" vT "Robles7^29 F.~~App'~x 736

738

(citing

(3d Cir. 2005)).

Prejudice to the defendant concerns only "the interests
which the speedy trial right was designed to protect."
407 U.S. at 532.

There are three such interests:

prevent oppressive pretrial incarceration;

Barker,

"(i). to

(ii) to minimize

anxiety and concern of the accused; and (iii) to limit the
possibility that the defense will be impaired."

Id.

The

impairment of defense is the "most serious" of the interests.
Id.
Petitioner does not identify any prejudice that he
suffered by the delays.

In his original PCRA petition,

Petitioner merely states that the delays "so undermined the
truth-determining process that no reliable adjudication of guilt
or innocence" could have happened.

45

SCR No. D18 I 30.

This is a

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 46 of 48

vague and conclusory allegation that he suffered prejudice
through his defense being impaired.
When discussing the fourth Barker factor in his
objections to the R&R, Petitioner argues that he was "prejudiced
by trial counsel's ineffectiveness."

ECF No. 39 f! 65-66.

Petitioner further argues that he has been prejudiced by the
loss of "an individual's most valuable right, i.e., his right to
liberty."

Id. f 66.

These are irrelevant arguments to the

showing of prejudice required by the fourth Barker factor.
Petitioner has not shown how the delays caused him
prejudice to his defense at trial.

The fourth Barker factor

weighs against Petitioner.
7.

Conclusion

On balance, Petitioner's failure to assert the claim
and the lack of prejudice to Petitioner's case outweigh any
loading on the scale that goes in his favor from the second
factor because to the extent the second factor weighs against
the Commonwealth, it is minor due to the short delay that was
caused by no more than negligence.
Accordingly, there is no merit to the argument that
Petitioner was denied his speedy trial rights under the Sixth
Amendment, thus Petitioner's habeas claim amounts to an argument
that trial counsel was ineffective for failing to raise a
meritless claim.

Once again, such a claim of ineffectiveness
46

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 47 of 48

fails because "there can be no Sixth Amendment deprivation of
effective counsel based on an attorney's failure to raise a
meritless argument."

Bui, 795 F.3d at 366-67.

If the Sixth Amendment-based claim was properly before
this Court for review, the Court would deny the Petition on this
Ground.

VI.

GROUNDS ONE, THREE, AND FIVE TO NINE
Petitioner conceded these grounds in his Objection to

“Report and Recommendation.

ECF No. 39 f 20.

The Court approves

the R&R on these grounds, and denies the Petition on these
grounds.

VII. CERTIFICATE OF APPEALABILITY
A petitioner seeking a certificate of appealability
must demonstrate "a substantial showing of the denial of a
constitutional right."

28 U.S.C. § 2253(c)(2).

"A petitioner

satisfies this standard by demonstrating that jurists of reason
could disagree with the district court's resolution of his
constitutional claims or that jurists could conclude the issues
presented are adequate to deserve encouragement to proceed
further."

Miller-El, 537 U.S. at 327

529 U.S. 473, 484 (2000)) .

47

(citing Slack v. McDaniel,

Case 2:15-cv-04800-ER Document 41 Filed 12/21/18 Page 48 of 48

The Court finds that there is no basis to issue a
certificate of appealability in this case because Petitioner has
not made a substantial showing of the denial of his
constitutional rights.

VIII.

See Slack, 529 U.S. at 483-84.

CONCLUSION
The Court denies the Petition on all of the grounds

raised by the Petitioner.

48

APPENDIX C

Case 2:15-cv-04800-ER Document 42 Filed 12/21/18 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
TYRONE JOHNSTON,

CIVIL ACTION
NO. 15-04800

Petitioner,
v.
LAWRENCE MAHALLY,1
DISTRICT ATTORNEY OF COUNTY OF
PHILADELPHIA, and
ATTORNEY GENERAL OF THE STATE
OF PENNSYLVANIA
Respondents.
ORDER
AMD NOW, this 21st day of December, 2018, after review
of the Petition for a Writ of Habeas Corpus (ECF No. 1),
Petitioner's Memorandum of Law in Support (ECF No. 6) ,
Respondents' Response to the Petition (ECF No. 23); Petitioner's
Traverse to the Response (ECF No. 28); Respondents' Supplemental
Exhibits

(ECF No. 30); the Report and Recommendation of United

States Magistrate Judge Lynne Sitarski (ECF No. 32), and
Petitioner's objections thereto (ECF No. 39), and for the
reasons set forth in the accompanying memorandum, it is hereby
ORDERED as follows:

i

See Rules Governing § 2254 Cases in the United States
District Courts, Rule 2.

Case 2:15-cv-04800-ER Document 42 Filed 12/21/18 Page 2 of 2

l)

The Report and Recommendation (ECF No. 32) is
APPROVED as to Grounds One

Three, Five, Six,

Seven, Eight, and Nine;2
2)

Following de novo review, Petitioner's Objections
as to the Report and Recommendation (ECF No. 39)
are OVERRULED, and the Petition as to Grounds Two
and Four is DENIED for the reasons provided in
Memorandum issued this same day;

3)

The Petition for a Writ of Habeas Corpus

(ECF

No. 1) is DENIED as to all grounds and DISMISSED
WITH PREJUDICE;
4)

A certificate of appealability shall NOT issue; and

5)

The Clerk of Court shall mark this case as CLOSED.

AND IT IS SO ORDERED.

/s/ Eduardo C. Robreno
EDUARDO C. ROBRENO,
J.

2

In his Objection to Report and Recommendation,
Petitioner stated that he "objects to the R&R relating to Claims
Two and Four, and concedes to the remaining as presented
therein." ECF No. 39 5 20.
2

